-,-­
                                                                                 Off~ceof Inspector General
          DEPARTMENT OFHEALTH & HUMAN SERVICES                                   Off~cesof A u d ~ tServ~ces



                                                                                 Reg~onVII
                                                                                 601 East 12th Street

       DEC 1 5 2006                                                              Room 284A
                                                                                 Kansas C ~ t y .M ~ s s o u r64106
                                                                                                               ~




       Report Number: A-07-06-002 17

       Ms. Sandy L. Coston
       President & Chief Operating Officer
       First Coast Service Options, Inc.
       532 Riverside Avenue 20T
       Jacksonville, Florida 32202

       Dear Ms. Coston:

       Enclosed are two copies of the U.S. Department of Health and Human Services (HHS), Office of
       Inspector General (OIG) final report entitled "Review of Supplemental Executive Retirement
       Plan Costs Claimed by First Coast Service Options for Medicare Reimbursement for Fiscal
       Years 2003 Through 2005." A copy of this report will be forwarded to the HHS action official
       noted on the following page for review and any action deemed necessary.

       The action official will make final determination regarding actions taken on all matters in the
       report. We request that you respond to the HHS action official within 30 days from the date of
       this letter. Your response should present any comments or additional information that you
       believe may have a bearing on the final determination.

       In accordance with the principles of the Freedom of Information Act, 5 U.S.C. 5 552, as
       amended by Public Law 104-231, OIG reports are made available to the public to the extent the
       information is not subject to exemptions in the Act (see 45 CFR part 5).

       If you have any questions or comments about this report, please do not hesitate to call me at
       (8 16) 426-3591, extension 274, or Jenenne Tambke, Audit Manager, at (573) 893-8338,
       extension 21, or through email at Jenenne.Tambke@,oig.hhs.gov. Please refer to report number
       A-07-06-002 17 in all correspondence.

                                                           Sincerely yours,




                                                     & Patrick J. Cogley
                                                           Regional Inspector General
                                                            for Audit Services


       Enclosures
Page 2 – Ms. Sandy L. Coston


Direct Reply to HHS Action Official:

Mr. Roger Perez
Regional Administrator, Region 4
Centers for Medicare & Medicaid Services
61 Forsyth Street, S.W., Suite 4T20
Atlanta, Georgia 30303-8909
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




  REVIEW OF SUPPLEMENTAL 

 EXECUTIVE RETIREMENT PLAN 

COSTS CLAIMED BY FIRST COAST 

    SERVICE OPTIONS FOR 

  MEDICARE REIMBURSEMENT 

   FOR FISCAL YEARS 2003

       THROUGH 2005 





                    Daniel R. Levinson

                     Inspector General 


                      December 2006

                      A-07-06-00217

                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices 




       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

In accordance with the principles of the Freedom of Information Act
(5 U.S.C. 552, as amended by Public Law 104-231), Office of Inspector
General, Office of Audit Services reports are made available to
members of the public to the extent the information is not subject to
exemptions in the act. (See 45 CFR Part 5.)

               OAS FINDINGS AND OPINIONS

The designation of financial or management practices as questionable
or a recommendation for the disallowance of costs incurred or claimed,
as well as other conclusions and recommendations in this report,
represent the findings and opinions of the HHS/OIG/OAS. Authorized
officials of the HHS divisions will make final determination on these
matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

First Coast Service Options (FCSO) administers Medicare Parts A and B operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services. In claiming costs,
contractors must follow cost reimbursement principles contained in the Federal Acquisition
Regulations (FAR), Cost Accounting Standards (CAS), and the Medicare contract.

To be allowable for Medicare reimbursement, pension costs must be (1) measured, assigned, and
allocated in accordance with CAS 412 and 413; and (2) funded as specified by part 31 of the
FAR. In addition, part 31 of the FAR states a cost must be reasonable in order to be allowable.

The Supplemental Executive Retirement Plan (SERP), in which FCSO participates, is
maintained primarily to provide deferred compensation to a select group of management or
highly compensated employees. The SERP is a nonqualified pension plan designed to restore
benefits lost due to the Internal Revenue Code limits under the regular qualified plan.

OBJECTIVE

Our objective was to determine the allowability of the SERP costs claimed by FCSO for
Medicare reimbursement for fiscal years (FYs) 2003–2005.

SUMMARY OF FINDING

FCSO claimed unallowable SERP costs for FYs 2003–2005. During this period, the allowable
SERP costs were $332,880. However, FCSO claimed SERP costs of $414,300 for Medicare
reimbursement. FCSO did not claim SERP costs in accordance with the FAR and the CAS. As
a result, FCSO claimed $81,420 of unallowable SERP costs.

RECOMMENDATIONS

We recommend that FCSO revise its Final Administrative Cost Proposals for FYs 2003–2005 to
reduce its claimed SERP costs by $81,420. We also recommend that FCSO claim future SERP
costs in accordance with the FAR and the CAS.

AUDITEE’S COMMENTS

FCSO does not agree with the compensation benchmarks used in our calculations to establish
and limit the reasonableness of SERP costs. However, FCSO has decided to revise its claims for
FYs 2003–2005 to reduce claimed SERP costs by $81,420. FCSO did not comment on our
second recommendation to claim future SERP costs in accordance with the FAR and the CAS.
FCSO’s response is included in its entirety as Appendix B.




                                               i
OFFICE OF INSPECTOR GENERAL’S RESPONSE

FCSO’s decision to reduce claimed SERP costs by $81,420 reflects a small adjustment to our
original calculations. We agree with this adjustment.




                                            ii
                                                INTRODUCTION

BACKGROUND

FCSO and Medicare

First Coast Service Options (FCSO) administers Medicare Parts A and B operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS). 1 In
claiming costs, contractors must follow cost reimbursement principles contained in the Federal
Acquisition Regulations (FAR), Cost Accounting Standards (CAS), and the Medicare contract.

To be allowable for Medicare reimbursement, pension costs must be (1) measured, assigned, and
allocated in accordance with CAS 412 and 413; and (2) funded as specified by part 31 of the
FAR. In addition, part 31 of the FAR states a cost must be reasonable in order to be allowable.

The Supplemental Executive Retirement Plan (SERP), in which FCSO participates,2 is
maintained primarily to provide deferred compensation to a select group of management or
highly compensated employees. The SERP is a nonqualified defined benefit pension plan
designed to restore benefits lost due to the Internal Revenue Code limits under the regular
qualified plan.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of the SERP costs claimed by FCSO for
Medicare reimbursement for fiscal years (FYs) 2003–2005.

Scope

We reviewed FCSO’s SERP costs claimed on its Final Administrative Cost Proposals (FACPs)
for FYs 2003–2005. Achieving the objective did not require that we review FCSO’s internal
control structure. However, we did review the controls related to the SERP costs FCSO claimed
for Medicare reimbursement to ensure that SERP costs were allowable in accordance with the
FAR and the CAS.

We performed onsite audit work at FCSO’s office in Jacksonville, Florida during February 2006.

Methodology

We obtained information from FCSO and its consulting actuary regarding costs associated with
the SERP for FYs 2003–2005. We identified the SERP costs for the total company including the

1
 Prior to October 1, 2003, FCSO managed the contracts under a special power of attorney on behalf of its parent
organization, Blue Cross Blue Shield of Florida, Inc. (BCBSF). BCBSF novated the contracts to FCSO after
October 1, 2003.
2
    FCSO participates in its parent organization’s SERP.


                                                           1
Medicare segment. FCSO provided us with information on its SERP benefit payments and
Medicare lines of business percentages. The CMS Office of the Actuary calculated the
allowable amortizable benefit for participants who received a lump-sum benefit
payment in accordance with the FAR and the CAS. We reviewed the methodology and
calculations used by the CMS Office of the Actuary. Where applicable, the calculations
incorporated our determination of reasonable salaries.

We performed this review in conjunction with our audits of pension segmentation requirements
(A-07-04-00172) and of pension costs claimed for Medicare reimbursement (A-07-04-00180).
We also used the information obtained and reviewed during these audits in performing this
review.

We conducted our review in accordance with generally accepted government auditing standards.

                          FINDING AND RECOMMENDATIONS

FCSO claimed SERP costs that were unallowable for Medicare reimbursement for FYs 2003–
2005 because it did not claim SERP costs in accordance with the FAR and the CAS. Therefore,
FCSO claimed unallowable SERP costs of $81,420 for FYs 2003–2005.

FAR 31.201-2(a) states, in part, that a cost must be reasonable to be allowable. FAR 31.205-
6(b)(2) provides that comparable market data be used to evaluate the reasonableness of
compensation. Furthermore, FAR 31.201-6(a) states: “When an unallowable cost is incurred, its
directly associated costs are also unallowable.” SERP pension benefits are directly associated
with compensation because the benefit is based on the salary history of the recipient.

According to the CAS 412-50(b)(3), the cost of defined-benefit pension plans that is accounted
for under the pay-as-you-go cost method shall be based on the net amount of any periodic
benefits paid, and a level annual installment required to amortize any lump-sum benefit
payments over 15 years. The amortization can include an interest component.

We compared allowable SERP costs with the SERP costs claimed on FCSO’s FACPs, as shown
in the table below.

                            SERP COST CLAIMED VARIANCE
                     Fiscal Year Per OIG   Per FCSO Difference
                        2003      $144,288  $141,829    $2,459
                        2004       149,638    208,191  (58,553)
                        2005        38,954     64,280  (25,326)
                        Total     $332,880  $414,300  ($81,420)

For FYs 2003–2005, allowable SERP costs were $332,880; however, FCSO claimed SERP costs
of $414,300 for Medicare reimbursement. The overclaim occurred because FCSO did not claim
SERP costs in accordance with the FAR and the CAS.

FCSO elected to account for SERP costs based on the pay-as-you-go accounting method. Costs
were based on periodic payments made to SERP recipients, plus a 15 year amortization of lump

                                               2
sum SERP payments. FCSO omitted several SERP payments from its claim and did not include
an interest component in the determination of the amortization installments. Our calculations
took into account both the omitted SERP payments and an allowable interest component in the
lump sum amortizations. The amortizations were based on the interest rate used to determine
costs for the qualified defined benefit pension plan.

FCSO’s claim also included an amortization charge for a SERP lump sum payment that, for
Medicare reimbursement, should have been computed using reasonable salaries. By not limiting
the associated salaries to a reasonable level, FCSO overstated the allocable SERP payment. This
resulted in an overclaim of SERP costs for Medicare reimbursement. As stated above, if a
portion of compensation is unreasonable, it is unallowable for purposes of computing any
directly associated costs. Our calculations applied a reasonable limit to the associated salaries in
order to determine allowable SERP costs for Medicare reimbursement. 3

RECOMMENDATIONS

We recommend that FCSO revise its FACPs for FYs 2003–2005 to reduce its claimed SERP
costs by $81,420. We also recommend that FCSO claim future SERP costs in accordance with
the FAR and the CAS.

AUDITEE’S COMMENTS

FCSO does not agree with the benchmarks used in our calculations to establish and limit the
reasonableness of compensation upon which the claimed SERP costs were based. FCSO has
determined, however, that the proposed adjustment does not justify further contention of the
issue and will revise its claims for FYs 2003–2005 to reduce claimed SERP costs by $81,420.
FCSO did not comment on our second recommendation to claim future SERP costs in
accordance with the FAR and the CAS. FCSO’s response is included in its entirety as
Appendix B.

OFFICE OF INSPECTOR GENERAL’S RESPONSE

FCSO’s decision to reduce claimed SERP costs by $81,420 reflects a small adjustment to our
original calculations. We agree with this adjustment.




3
 We used the FAR 31.205-6(p) executive compensation limits as a comparable market benchmark of reasonable
compensation.


                                                      3
APPENDIXES
                                                                                       APPENDIX A


                            FIRST COAST SERVICE OPTIONS

                        STATEMENT OF ALLOWABLE SERP COSTS

                              FOR FISCAL YEARS 2003-2005




            Amortized
         Allocable Lump-         Allocable                                               Medicare
           Sum Benefit         Annuity Benefit      Allocable Total     Medicare     Allowable SERP
Fiscal      Payments             Payments          Benefit Payments      LOB%             Costs
Year            1/                   2/                    3/              4/              5/
2003     $         53,682      $    1,148,716      $     1,202,398      12.00%       $      144,288
2004             310,295            1,153,874            1,464,169      10.22%              149,638
2005             120,065              292,147               412,212      9.45%               38,954
         $       484,042       $    2,594,737      $     3,078,779                   $      332,880




FOOTNOTES

    1/ FCSO provided schedules of lump-sum benefit payments. These were verified against
       supporting documentation. In accordance with CAS 412.50 (b)(3), we amortized the allocable
       lump sum benefit payments, including an interest equivalent, over a 15 year period. The interest
       component was computed at the rate used to determine costs for the qualified pension plan. The
       rate was 8% for payments made during fiscal year (FY) 2003 and 7.5% for payments made
       during FYs 2004 and 2005.

    2/ FCSO provided a schedule of annuity payments for each FY. These were verified against
       supporting documentation.

    3/ Allocable total benefit payments are the sum of (i) amortized allocable lump-sum benefit
       payments and (ii) allocable annuity benefit payments.

    4/ FCSO provided the total company Medicare line of business (LOB) percentage for each FY.
       We verified the percentages and determined that they were reasonable.

    5/ Medicare allowable SERP costs are the allocable total benefit payments multiplied by the
       Medicare LOB%. For FY 2005, we followed FCSO and its parent organization's corporate
       sensitive data decision to exclude certain SERP costs.
APPENDIX B
  Page 1 of 2
APPENDIX B
  Page 2 of 2
